    AUDIT REPORT
U.S. Fish and Wildlife Service
  Federal Assistance Grants
 Administered by the State of
North Carolina, Department of
  Environment and Natural
Resources, Division of Marine
 Fisheries, from July 1, 2001,
    through June 30, 2003




  Report No. R-GR-FWS-0011-2004

                   December 2004
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191



                                                                                December 1, 2004

                                   AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of North Carolina, Division of Marine Fisheries
           from July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0011-2004)


        This report presents the results of our audit of costs claimed by the State of North
Carolina, Department of Environment and Natural Resources, Division of Marine Fisheries
(Division) under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The
audit included claims that totaled approximately $3.5 million on FWS grants that were open
during the State’s fiscal years ended June 30, 2002 and 2003 (see Appendix 1).

        Generally, we found that the Division was in compliance with applicable grant
accounting and regulatory requirements. However, we did find two issues that the Division
needs to address. First, the Division did not have written instructions or procedures to monitor
and ensure compliance with the three percent cost limitation for State central services costs
allocated to its grant programs. In addition, we found that the Division filed nine required
reports (six financial and three performance reports) late with FWS during the State’s fiscal years
2002 and 2003.

        FWS Region 4 responded to a draft of this report on September 27, 2004. We considered
the response in preparing the final report and made changes to the report to clarify the issues. We
also have added the responses after our recommendations and summarized the status of the
recommendations in Appendix 3.
        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response to the recommendations included in this report by March 3, 2005. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me at (703) 487-5345 or Mr. Steven Moberly, Audit Team Leader, at (916) 978-
5650.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                                2
                                        Introduction

Background
The Dingell-Johnson Sport Fish Restoration Act (Act)1 authorizes the U.S. Fish and Wildlife
Service (FWS) to provide Federal Assistance grants to the states to enhance their sport fish
programs. The Act provides for FWS to reimburse the states up to 75 percent of the eligible costs
incurred under the grants. It also specifies that state fishing license revenues cannot be used for
any purpose other than the administration of the state’s fish and game department. The Division
of Marine Fisheries (Division), however, does not require licenses for fishing off the coast and
therefore did not receive any fishing license revenues.

Scope, Objective, and Methodology
We performed our audit at the Division headquarters in Morehead City, North Carolina, and at
the Department of Environment and Natural Resources (Department) in Raleigh. The audit work
at the Division included claims that totaled approximately $3.5 million on FWS grants that were
open during the State’s fiscal years (SFYs) ended June 30, 2002, and 2003 (see Appendix 1). We
also visited a district and a field office (see Appendix 2). The objective of our audit was to
evaluate:

              ¾ the adequacy of the Division’s financial management system and related internal
                controls;
              ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                Federal Assistance grant agreements with FWS;
              ¾ the adequacy of the Division’s asset management system and related internal
                controls with regard to purchasing, control and disposal; and
              ¾ the adequacy of the State’s compliance with the Act’s assent legislation
                requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Division to
the grants and interviews with employees to ensure that personnel costs charged to the grants
were supportable. We did not evaluate the economy, efficiency, or effectiveness of the
Division’s operations.




1
    As amended, 16 U.S.C. 777



                                                 3
Prior Audit Coverage
On October 6, 1997, we issued audit report No. 98-E-13, “U.S. Fish and Wildlife Service Federal
Aid Grants to the State of North Carolina, Division of Marine Fisheries, for Fiscal Years 1994,
1995, and 1996.” Also, the State Auditor issued single audit reports on the State of North
Carolina for SFYs 2002 and 2003, but the Division was not audited as a major program in those
single audits.

We reviewed these reports and followed up on all findings to determine whether they affected
the Division’s operations and whether they had been resolved prior to our review. We
determined that one of the findings in the audit of Federal Assistance grants had not been
resolved. Specifically, as discussed in the Results of Audit section of this report, we found that
some financial status and annual performance reports were still not being submitted to FWS
within the allotted time frames established within the Code of Federal Regulations.




                                                 4
                                       Results of Audit
Generally, we found that the Division was in compliance with applicable regulatory and grant
accounting requirements with respect to the following:

               ¾ the Division’s accounting system and related internal controls adequately and
                 accurately accounted for grant disbursements;
               ¾ the direct and indirect costs claimed under the Federal Assistance grant
                 agreements with FWS were adequately recorded and supported;
               ¾ the asset management system accurately identified and tracked personal property
                 with regard to acquisition, control, and disposal; and
               ¾ the State had adequate assent legislation in place that prohibited the use of license
                 fees for any purpose other than the administration of the Division.

However, we also found that:

          A.      The Division and the Department were unaware of the three percent limitation on
                  the reimbursement of statewide central services costs and did not have written
                  instructions or procedures to monitor and ensure compliance with the limitation.
          B.      The Division did not file nine required reports (six financial and three
                  performance reports) with FWS on time.




A. Indirect Costs


The Division did not have procedures for ensuring that reimbursements for State central services
costs did not exceed the limitation cited in the Code of Federal Regulations (Regulations). The
Regulations2 state that administrative costs in the form of overhead or indirect costs for State
central services outside of the State fish and wildlife agency shall not exceed in any one fiscal
year, three percent of the State’s annual apportionment of Sport Fish Restoration funds. In
addition, the Regulations3 state that each coastal State, to the extent practicable, shall equitably
allocate its apportioned funds between projects having recreational benefits for marine fisheries
and projects having recreational benefits for freshwater fisheries. Thus, the amount of central
services costs that the Division can claim should not exceed three percent of the amount of the
apportionment allocated to it.

Although the Division’s reimbursements for central services costs did not exceed the three
percent limitation, we found that neither the Division nor the Controller’s Office for the
Department were aware of the limitation. Accordingly, they had not developed written

2
    50 CFR § 80.15(d)
3
    50 CFR § 80.23(a)



                                                    5
instructions or procedures for applying the limitation in developing an indirect cost rate or for
monitoring compliance with the limitation to ensure that excessive central services costs were
not charged to Federal Assistance grants.

We found no monetary impact from this condition because the costs allocated for central services
were below the appropriate limitations for SFYs 2002 and 2003. However, without proper
application and monitoring, the Division’s reimbursement for central services costs could exceed
the three percent limitation.

          Recommendation
          We recommend that FWS require the Division or the Department to develop procedures
          to compute the three percent limitation on the Division’s central services costs based on
          its share of the annual apportionment and ensure that it monitors the amount of central
          services costs it claimed under Federal Assistance grants.

          FWS Response
          The FWS agreed with the finding. FWS added that they will require the Division to
          develop procedures to compute the three percent limitation on central services costs
          based on its share of the annual apportionment.

          OIG Comments
          We consider the response sufficient to consider this matter resolved but the
          recommendation not implemented. FWS should identify target dates and an official
          responsible for implementation of the recommendation.


B. Financial and Performance Reporting Requirements

The Division did not submit required financial and performance reports to FWS in a timely
manner. The Regulations4 state that within 90 days after the expiration or termination of the
grant, the grantee must submit all financial, performance, and other reports required by the grant
agreement. They also state that Federal agencies may extend the timeframe, upon request by the
grantee. The required reports include (1) the final performance or progress report and (2) the
Financial Status Report (SF-269) or Outlay Report and Request for Reimbursement for
Construction Programs (SF-271), as applicable.

Our prior audit report (No. 98-E-13) showed that the Division was late submitting 28 required
reports (15 financial and 13 performance reports). We followed up on this issue and found that
although the Division has made improvements in meeting the Federal filing requirements, it did
not fully comply with these requirements. We found that 9 required reports (6 financial and 3

4
    43 CFR § 12.90(b)



                                                  6
performance reports) out of 66 were filed late during SFYs 2002 and 2003. The Division had not
requested time extensions from FWS in these nine instances.

For six of the nine reports, the Division did not provide a reasonable explanation for the late
submission. For the other three reports, we believe that the Division would have been justified in
requesting permission to file a late report because it discovered that the wrong retirement
percentage had been used in calculating charges to the grants, which had to be corrected prior to
the report submissions.

In response to the prior audit report recommendations, Division officials stated that they would
develop written policy and procedures to guide Federal grant administration, designate one
employee as the focal point for tracking the report due dates, and improve the accounting
provided by the Controller’s Office to enable timely submission of the required reports. We
found, however, that the procedures developed only designate a person responsible for
completing the financial reports and do not designate a person responsible for ensuring timely
submission of the annual performance reports. We believe that the lack of a designated
individual responsible for tracking and ensuring compliance with the filing requirements for both
financial and performance reporting contributed to the Division’s continued noncompliance with
the Federal filing standards.

No monetary impact was identified. However, without the timely and reliable submission of
financial and performance reports, the Division’s and FWS’s ability to assess the success of its
Federal Assistance program and to plan and improve subsequent years’ programs and financing
is impaired.

       Recommendations
       We recommend that FWS:

       1.      Require the Division to revise its procedures for handling Federal grants to
               designate a person responsible for ensuring timely submission of annual financial
               status and performance reports.

       2.      Work with and monitor the Division to ensure that financial and performance
               reports are submitted within the time requirements or that time extensions for
               cause are requested and granted.

       FWS Response
       FWS agreed with the finding. FWS added that it considers the Division to be currently in
       compliance with the reporting requirements and provided a copy of the current Federal
       Aid Information Management System to illustrate that the Division has no late reports.
       FWS also stated it has not noted any significant reporting problems with the Division
       since the audit period. Finally, FWS stated that it has designated coordinators for each
       state agency who are responsible for monitoring their grant reports.



                                                7
OIG Comments
Based on the FWS response, we consider this matter resolved and the recommendations
implemented.




                                      8
                                         Appendix 1

NORTH CAROLINA DIVISION OF MARINE FISHERIES
  FINANCIAL SUMMARY OF REVIEW COVERAGE
Grant Number        Grant Amount     Claimed Costs

F-25-16                  $ 125,000        $55,748
F-25-17                   189,000         181,860
F-25-18                   170,000          62,671
F-28-16                    24,000          11,544
F-28-17                    24,000          18,985
F-28-18                    24,000            6,701
F-31-15                   295,000         212,653
F-31-16                   294,000         294,000
F-31-17                   300,000         119,334
F-41-11                   151,000          59,621
F-41-12                   165,000          63,576
F-41-13                   160,000          17,851
F-42-11                   233,000         131,888
F-42-12                   240,000         225,158
F-42-13                   250,000          67,986
F-56-8                    270,000          66,312
F-56-9                    282,000         274,659
F-56-10                   378,000         233,344
F-70-1                    336,000         281,942
F-70-2                    260,000         171,258
F-71-1                    226,267          87,259
F-71-2                    194,000         133,098
F-72-1                    182,000         107,327
F-72-2                    126,000          85,527
F-72-3                    126,000          14,934
F-73-1                     85,600          62,668
F-73-2                     56,000          35,802




                     9
                                        Appendix 1

NORTH CAROLINA DIVISION OF MARINE FISHERIES
  FINANCIAL SUMMARY OF REVIEW COVERAGE
Grant Number        Grant Amount    Claimed Costs

F-73-3                    $56,000        $11,948
F-74-1                    100,000         64,811
F-74-2                     80,000           2,655
F-75-1                    200,000        135,743
F-75-2                    200,000        200,000
F75-3                     200,000         30,342
                      $ 6,001,867     $ 3,529,205




                     10
                                                               Appendix 2



NORTH CAROLINA DIVISION OF MARINE FISHERIES
               SITES VISITED

    Division of Marine Fisheries Headquarters, Morehead City


    Department of Environment and Natural Resources, Raleigh


               Pamlico District Office, Washington


               Wanchese Field Office, Wanchese




                               11
                                                                             Appendix 3


           NORTH CAROLINA DIVISION OF MARINE FISHERIES
                    STATUS OF AUDIT FINDINGS
                     AND RECOMMENDATIONS


 Recommendation             Status                    Action Required
A                    Finding Resolved and   Provide a corrective action plan that
                     Recommendation Not     includes the target date and the official
                     Implemented.           responsible for implementation of the
                                            recommendation. The unimplemented
                                            recommendation remaining at the end of
                                            90 days (after March 3, 2005) will be
                                            referred to the Assistant Secretary of
                                            PMB for resolution and/or tracking of
                                            implementation.


B.1, B.2             Finding Resolved and   No further action is required.
                     Recommendations
                     Implemented.




                                      12
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
